No. _________________
______________________________________
IN THE
SUPREME COURT OF THE UNITED STATES
______________________________________
DOMINIQUE MACK,
Petitioner.
vs.
UNITED STATES OF AMERICA,
Respondent.
_____________________________________
On Petition for Writ of Certiorari
to the United States Court of Appeals
for the Second Circuit
________________________________
APPENDIX TO
PETITION FOR WRIT OF CERTIORARI
________________________________
Jeremiah Donovan
123 Elm Street, Unit 400
Post Office Box 554
Old Saybrook, CT 06475
(860) 388-3750 FAX 388-3181
jeremiah_donovan@sbcglobal.net
Attorney for the Petitioner

Table of Contents
Materials from Court of Appeals
Reported decision of the Court of Appeals (954 F.3d 551). . . . . . . . . . . . . . . . . 001
Summary Order of the Court of Appeals...............................01
Order Denying Petition for Rehearing . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 020
Order Granting Motion for Extension to File Petition for Rehearing . . . . . . . . . 021
Order Granting Motion for Second Extension to File Petition for Rehearing . . 022

Materials from the district court
Second Superseding Indictment . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 023
Ruling on Motion for Judgment of Acquittal . . . . . . . . . . . . . . . . . . . . . . . . . . . 032
Judgment. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 054
Notice of Appeal. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 056
Miller Plea Agreement and Stipulation of Offense Conduct. . . . . . . . . . . . . . . . 058
Excerpt from transcript of Miller guilty-plea proceeding . . . . . . . . . . . . . . . . . . 068
Excerpt from transcript of hearing on motion to continue
Miller sentencing . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 073
Court ruling on admissibility of Farmer testimony concerning
Miller statements . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 081
Excerpt from Farmer’s testimony about what Miller told him . . . . . . . . . . . . . . 089

Statutory materials
Title 18, United States Code, § 1111 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 106
Title 18, United States Code, § 1112 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 106
Title 18, United States Code, § 1512 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 106

Miscellaneous materials
Government motion to stay mandate in United States v. Gary . . . . . . . . . . . . . . 111

Page 551
954 F.3d 551 (2nd Cir. 2020)
UNITED STATES OF AMERICA, Appellee,
v.
KERONN MILLER, aka Fresh, TYQUAN LUCIEN, aka TQ, aka Frogger, Defendants
DOMINIQUE MACK, aka Lil Sweets, Defendant-Appellant.
No. 16-3734-cr
United States Court of Appeals, Second Circuit
April 2, 2020
Argued February 19, 2019
Page 552
[Copyrighted Material Omitted]
Page 553
[Copyrighted Material Omitted]
Page 554
[Copyrighted Material Omitted]
Page 555

Appeal from the United States District Court for the District of Connecticut. No. 3:13-cr-00054
(MPS) - Michael P. Shea, Judge.
Defendant Dominique Mack appeals from a judgment entered in the United States District
Court for the District of Connecticut following a jury trial before Michael P. Shea, Judge, convicting
him of conspiracy to commit witness tampering related to the death of Ian Francis, in violation of 18
U.S.C. § 1512(k); conspiracy to commit witness tampering by planning to murder Charles Jernigan, in
violation of 18 U.S.C. § 1512(k); and two counts of unlawful possession of a firearm by a felon, in
violation of 18 U.S.C. §§ 922(g)(1) and 924(a)(2). [ 2] The district court sentenced Mack to life
imprisonment for each of the conspiracy convictions and ten years' imprisonment for each of the
firearm possession convictions, all sentences to run concurrently. This opinion addresses Mack's
claims on appeal that the district court: (i) failed to instruct the jury on an essential element of his
firearms offenses; (ii) erred in admitting hearsay declarations under Federal Rule of Evidence
804(b)(3); (iii) erred in admitting a summary chart under Federal Rule of Evidence 1006; and (iv) was
not required to impose life sentences for Mack's conspiracy convictions. We reject these arguments
and AFFIRM the conviction.[ 3]
COUNSEL:
BRIAN P. LEAMING (Jennifer R. Laraia, Marc H. Silverman, on the brief) Assistant United
States Attorneys, for John H. Durham, United States Attorney for the District of Connecticut, for
Appellee.
Page 1 of 13
001

JEREMIAH DONOVAN, Old Saybrook, CT, for Defendant-Appellant.
Before: WALKER and LIVINGSTON, Circuit Judges, and FAILLA, District Judge.[ *] .
OPINION
Page 556
John M. Walker, Jr., Circuit Judge:
Defendant Dominique Mack appeals from a judgment entered in the United States District
Court for the District of Connecticut following a jury trial before Michael P. Shea, Judge, convicting
him of conspiracy to commit witness tampering related to the death of Ian Francis, in violation of 18
U.S.C. § 1512(k); conspiracy to commit witness tampering by planning to murder Charles Jernigan, in
violation of 18 U.S.C. § 1512(k); and two counts of unlawful possession of a firearm by a felon, in
violation of 18 U.S.C. §§ 922(g)(1) and 924(a)(2). [ 4] The district court sentenced Mack to life
imprisonment for each of the conspiracy convictions and ten years' imprisonment for each of the
firearm possession convictions, all sentences to run concurrently. This opinion addresses Mack's
claims on appeal that the district court: (i) failed to instruct the jury on an essential element of his
firearms offenses; (ii) erred in admitting hearsay declarations under Federal Rule of Evidence
804(b)(3); (iii) erred in admitting a summary chart under Federal Rule of Evidence 1006; and (iv) was
not required to impose life sentences for Mack's conspiracy convictions. We reject these arguments
and AFFIRM the conviction.[ 5]
BACKGROUND
At trial, the government argued that Mack killed Francis in order to avoid being arrested.
Although Mack was indicted on September 15, 2010, along with 32 others, law enforcement could not
locate him and turned to Breann Wynter, another defendant named in the indictment, for assistance.
Wynter hoped that by helping the government locate Mack, she might avoid a ten-year mandatory
minimum sentence. Wynter was dating Francis, Mack's close friend. Wynter and Francis, assuming
that Mack understood that his arrest was inevitable, hoped that Mack would be amenable to the
following proposal: in exchange for $1,000 or $1,500, Mack would tell Francis and Wynter where he
would be at a specific time, so that Wynter could tell law enforcement where Mack could be found.
Francis proposed this arrangement to Mack twice, but Mack neither accepted nor rejected it. Mack
never gave Francis or Wynter the requested information.
On December 21, 2010, at around 8:20 p.m., Keronn Miller, one of Mack's associates, was
riding in a car with Francis. Miller told Francis to pull over so Miller could urinate. Moments later, a
masked gunman fired multiple shots from a Ruger 9mm firearm into the car. When Miller returned to
the car, he found Francis shot but alive and on the phone with a 911 dispatcher. He then drove
Francis to the hospital. Francis died from his injuries on January 15, 2011. Mack and Miller were
indicted for conspiring to commit witness tampering by murdering Francis. In advance of Miller's
scheduled trial on that indictment, the government disclosed its witness list, which included Jernigan,
another of Mack's close friends.
On a superseding indictment, the government offered evidence that while incarcerated at the
Wyatt Detention Center in Rhode Island, Mack conspired to kill Jernigan to prevent him from
testifying. The government relied heavily on testimony from Tyquan Lucien, who also was
incarcerated at Wyatt and participated in the Jernigan conspiracy. Lucien told Mack
Page 2 of 13
002

Page 557
that if Jernigan were arrested, Jernigan might cooperate and testify against Mack. Mack responded, "
[I] got to do something about it. Like he got to go." [ 6] Lucien himself decided to do something about
it. Because he was not able to get out of jail on bond to kill Jernigan, Lucien turned to his cellmate,
who volunteered that " his boy" could kill Jernigan.[ 7] Unbeknownst to Lucien, his cellmate was an
FBI informant. The cellmate arranged for Lucien to meet " his boy," who in fact was an undercover
agent. When Lucien met with the agent in the Wyatt visiting area, he gave the agent Jernigan's home
address, which he had received from Mack. Some time later, Lucien told Mack, " I sent my peoples"
(referring to the undercover agent), " they came Friday," so that Mack " could know everything's a
go." [ 8] During this conversation, Mack confirmed to Lucien that the address that Lucien had given to
the agent was the right one.[ 9]
On April 27, 2016, the jury convicted Mack on two charges of conspiracy to commit witness
tampering by first-degree murder and on two firearms charges. On November 1, 2016, the district
court sentenced Mack to life imprisonment for each conspiracy and the statutory maximum penalty of
ten years' imprisonment for each firearms conviction, all sentences to run concurrently. This appeal
followed.
DISCUSSION
On appeal, Mack attacks his conviction and sentence, arguing primarily that the district court:
(i) failed to instruct the jury on an essential element of his firearms offenses; (ii) erred in admitting
hearsay declarations under Federal Rule of Evidence 804(b)(3); (iii) erred in admitting a summary
chart under Federal Rule of Evidence 1006; and (iv) was not required to impose life sentences for
Mack's conspiracy convictions. None of these arguments has merit.
I. The Jury Instructions
At trial, the district court instructed the jury that to satisfy the mens rea element for Mack's
firearms charges under 18 U.S.C. §§ 922(g)(1) and 924(a)(2),[ 10] the government had to prove only "
that the defendant knowingly possessed the firearm." [ 11] The district court did not instruct the jury
that the government had to show that Mack knew he was a member of a class of persons forbidden
to possess firearms by virtue of his earlier felony conviction. Relying on Rehaif v. United States ,[ 12] a
case decided by the Supreme Court just last term, Mack challenges the adequacy of the jury
instructions for his firearms conviction. Because Mack raises his challenge for the first time on appeal,
we review for plain error, considering whether " (1) there is an error; (2) the error is clear or obvious,
rather than subject to reasonable dispute; (3) the error affected the appellant's substantial rights; and
(4) the error seriously affects the fairness, integrity or public reputation of judicial
Page 558
proceedings." [ 13]
In Rehaif, the Supreme Court addressed whether a noncitizen had to know his immigration
status to be convicted under 18 U.S.C. § 922(g)(5), which prohibits " an alien . . . illegally or unlawfully
in the United States" from possessing a firearm. It held that to obtain any conviction under § 922(g),
the government must prove that the defendant " knew he belonged to the relevant category of
persons barred from possessing a firearm." [ 14] The Court determined that the district court's jury
instructions to the contrary were erroneous and remanded to allow the lower courts to decide whether
the error was harmless. As in Rehaif, and as the government concedes, the district court's jury
Page 3 of 13
003

instructions in Mack's case were clearly erroneous in their omission of the government's obligation to
prove Mack's knowledge of his status as a former felon.
Examining the question through the plain-error lens, Mack and the government agree that the
first two prongs of plain-error review are satisfied. They disagree, however, on the effect of those
erroneous jury instructions. Accordingly, we focus on the third and fourth prongs of plain-error review.
In assessing the effect of the erroneous jury instructions on Mack's substantial rights, we
consider " the weight of [the] trial evidence bearing on the omitted element" and whether the omitted
element was " essentially uncontroverted." [ 15] We ask whether we can conclude, beyond a
reasonable doubt, that a properly-instructed jury would have returned the same verdict. [ 16] In
answering this question, we appropriately limit ourselves to the evidence actually presented to the
jury.[ 17]
To find Mack guilty of a violation of § 922(g)(1), a properly-instructed jury would have to find,
beyond a reasonable doubt, that Mack knew he was a person convicted of a felony, or " a crime
punishable by imprisonment for a term exceeding one year." It is customary for a defendant in a case
like Mack's to stipulate to the existence of his prior felony in order to prevent its details (including the
duration of the sentence) from being placed before the jury. At trial, Mack entered into such a
stipulation,[ 18] which did not mention the
Page 559
duration of his sentence or his knowledge of whether he had a felony conviction, and the government
proffered no further evidence on his prior conviction or knowledge.
The government now asks us to rely on Mack's stipulation, as well as his failure to contest
scienter, to conclude that the jury, if properly instructed, would have still found Mack guilty. We
acknowledge that, given the rights to appointed counsel, effective assistance of counsel,[ 19] and due
process,[ 20] it is highly improbable that a person could be convicted of a felony without being aware
that his possible sentence would exceed one year's imprisonment. We also recognize that Mack and
his counsel never suggested to the jury that Mack was unaware that his prior conviction carried a
potential sentence of over one year's imprisonment. This differs Mack's case from United States v.
Balde, where we found that the defendant might not have known his § 922(g)(5) qualifying status as "
an alien . . . illegally or unlawfully in the United States" based on the legal " complexities" of the
defendant's immigration situation and how " hotly contested" scienter was at the district court.[ 21] Still,
we believe that the substantial-rights analysis in Mack's case is a difficult one, given the paucity of
factual development at trial pertaining to a question that was not discerned before Rehaif was
decided. Accordingly, we decline to decide whether a properly-instructed jury would have found that
Mack was aware of his membership in § 922(g)(1)'s class. Instead, we choose to resolve this case on
the fourth prong of plain-error review, which examines whether not reversing would " seriously affect[]
the fairness, integrity or public reputation of judicial proceedings" [ 22] and which does not necessarily
confine us to the trial record.
Under the circumstances, we do not think that rejecting Mack's argument will seriously affect
the fairness, integrity, or public reputation of judicial proceedings. To the contrary, we think that
accepting it would have that effect. Because Mack stipulated to his § 922(g)(1) qualifying status, at
trial he likely would have sought to exclude, and would have been successful in excluding, the details
pertaining to his prior offense as unnecessary and prejudicial embellishment on his stipulation.[ 23] We
will
Page 4 of 13
004

Page 560
not penalize the government for its failure to introduce evidence that it had but that, prior to Rehaif, it
would have been precluded from introducing. Therefore, in the limited context of our fourth-prong
analysis, we will consider reliable evidence in the record on appeal that was not a part of the trial
record: Mack's presentence investigation report (PSR), a report offered to Mack for correction and
subsequently adopted and relied upon by the district court during sentencing. The PSR shows that
Mack's prior conviction, for the unlawful theft and alteration of a firearm, resulted in a total effective
sentence of ten years' imprisonment, with execution suspended after three years, which removes any
doubt that Mack was aware of his membership in § 922(g)(1)'s class. Similarly, we have no doubt
that, had the Rehaif issue been foreseen by the district court, Mack would have stipulated to
knowledge of his felon status to prevent the jury from hearing evidence of his actual sentence. Under
all of the circumstances, it is plain to us that Mack has not satisfied the fourth plain-error prong.
Therefore, the district court's erroneous jury instructions did not rise to the level of reversible
plain error.[ 24]
II. Admissibility of Farmer's Testimony under Rule 804(b)(3)
Because Miller did not testify at trial, the government proffered testimony from Brandyn Farmer
as to statements Miller made to Farmer about Francis's murder. Mack objected to this testimony,
which covered Miller's statements that Miller had lured Francis to the spot where he was shot, that
Miller had been present when the shooting occurred, and that Mack was the shooter. After carefully
hearing from both sides, the district court permitted the testimony for the truth of Miller's statements
under Rule 804(b)(3)'s hearsay exception for statements against penal interest. We review the district
court's Rule 804(b)(3) determination for abuse of discretion,[ 25] and even if we find the district court's
determination to be in error, we will not reverse if the error is harmless.[ 26] But before we can find the
district court's ruling harmless, we must be " able to conclude that the evidence would have been
unimportant in relation to everything else the jury considered on the issue in question, as revealed in
the record." [ 27]
Rule 804(b)(3) allows for a hearsay statement to be admitted " if the declarant is unavailable as
a witness," the statement is " so contrary to the declarant's proprietary or pecuniary interest or had so
great a tendency to invalidate the declarant's claim against someone else or to expose the declarant
to civil or criminal liability" that " a reasonable person in the declarant's
Page 561
position would have made [the statement] only if the person believed it to be true," and the statement
" is supported by corroborating circumstances that clearly indicate its trustworthiness." [ 28] On
appeal, Mack argues that the district court erred in allowing Farmer's testimony because (i) Miller was
not an " unavailable" witness; (ii) even if Miller were " unavailable," the government procured his
unavailability; and (iii) the statements in question were not against Miller's interest and were not
credible. Although we share Mack's concerns regarding a provision in Miller's plea agreement which
Mack argues had the effect of procuring Miller's unavailability, we conclude that, even assuming there
was error, any such error would not have been clear and would in any event have been harmless.
A. Miller was an " unavailable" witness .
Rule 804(b)(3) first requires that " the declarant whose statement is sought to be introduced be
unavailable as a witness." [ 29] When a witness properly invokes his Fifth Amendment right against
Page 5 of 13
005

self-incrimination, he is unavailable for the purposes of Rule 804(a).[ 30]
At issue in this case is the manner in which Miller's Fifth Amendment right was invoked. On
December 2, 2014, in a plea proceeding before the same district court, Miller's counsel represented
that Miller " would take the Fifth if he was called to testify." [ 31] Again, on June 9, 2015, in a hearing
related to Miller's sentencing, Miller's counsel stated to the district court that he had advised Miller to
take the Fifth and that Miller had " indicated to [counsel] that he would heed that advice." [ 32] Ten
months later, on April 14, 2016, the district court concluded that " Mr. Miller would have exposure
were he to answer questions about any involvement he might have, and his lawyers have
represented to me in a public proceeding . . . that he would, in fact, invoke the Fifth Amendment if [he]
were called. Based on my understanding of the facts, he would have a basis for doing so. And,
therefore, I believe he does qualify as unavailable under Rule 804." [ 33]
A ruling regarding privilege " can be made . . . with or without the witness being haled into
court." [ 34] In United States v. Williams, we addressed a situation in which the district court relied on
representations of counsel regarding their clients' intention to rely on their Fifth Amendment privileges
rather than the clients' direct representations.[ 35] Counsel's representations were provided to the
district court roughly one month before the district court determined that counsel's clients were
unavailable within the meaning of Rule 804(a).[ 36] The only difference between Williams and Mack's
case is the amount of
Page 562
time between counsel's representation that the declarant would assert his Fifth Amendment privileges
and the district court's determination of unavailability. The distinction between one month in Williams
and ten months in Mack's case is not material. While it is possible that Miller could have changed his
mind about testifying, there is no suggestion in the record that he did. The district court did not abuse
its discretion in determining that Miller was unavailable for the purposes of Rule 804(a).
B. The district court did not clearly err in failing to conclude that the government procured
Miller's unavailability .
Mack next argues that, even if Miller were unavailable, Miller's statements were nonetheless
inadmissible under Rule 804(a) because the government impermissibly procured Miller's
unavailability through his plea agreement.[ 37] Mack raises this argument for the first time on appeal,
and so we can correct any error only if Mack demonstrates " (1) error that (2) is clear or obvious
under current law; (3) affects his substantial rights, which generally means affects the outcome of the
district court proceedings; and (4) seriously affects the fairness, integrity, or public reputation of
judicial proceedings." [ 38]
Miller's plea agreement included an unusual provision specifying that the agreed-upon
sentencing range would not be binding if Miller were to testify " about the subject matter which forms
the basis of the superseding indictment in this case, and provide testimony inconsistent with or in
addition to the facts proffered and agreed to by the defendant as part of the plea colloquy." [ 39] The
plea agreement specified facts regarding the Francis shooting, including that Miller enticed Francis to
a location where he knew he would be shot, " knowing and intending that another person or persons
who the defendant assisted wanted to prevent a person from communicating with federal law
enforcement and/or to prevent the attendance of a person at an official federal proceeding." [ 40]
Importantly, Miller's plea agreement did not say anything about Mack being the shooter or
Page 6 of 13
006

otherwise identify the shooter. Although the statements to Farmer that Miller saw Mack shoot Francis
or knew that Mack was the shooter were not inconsistent with the facts specified in the plea
agreement, they included additional facts. Accordingly, Miller could not have presented this testimony
without breaching his plea agreement and jeopardizing the agreed-upon sentencing range, thereby
motivating him to invoke his Fifth Amendment rights and rendering him unavailable to testify.
We are deeply troubled by the government's use of such a provision, which went beyond the
typical requirement that Miller's potential future testimony be truthful and instead significantly
constricted such testimony by requiring that it be identical to the facts elicited in his proffer.
Nevertheless, because the objection was not raised below and our review is limited to plain error, we
need not reach the question of whether the government procured Miller's availability in this case.
Here, Miller
Page 563
could have faced exposure justifying the invocation of the Fifth Amendment even absent the
government's use of the contested provision; in these circumstances, the district court did not commit
a clear or obvious error by failing to exclude the evidence on the basis that the government procured
Miller's unavailability. Moreover, as discussed below, any error with respect to the district court's Rule
804 analysis would have been harmless.
C. Miller's statements about which Farmer was permitted to testify were against Miller's interest
and were credible .
We are likewise unpersuaded by Mack's argument that the district court incorrectly found
Miller's statements to be statements against his interest and " supported by corroborating
circumstances that clearly indicate [their] trustworthiness." [ 41] The district judge did not abuse his
discretion in reaching either of these conclusions.
I. Miller's statements were against his penal interest .
Mack first argues that Miller's statements to Farmer were not against his penal interest because
it was in Miller's interest to falsely implicate Mack. However, " [w]hether a challenged statement is
sufficiently self-inculpatory can only be answered by viewing it in context. Thus, this determination
must be made on a case-by-case basis." [ 42] A statement is against penal interest if " a reasonable
person in the declarant's shoes would perceive the statement as detrimental to his or her own penal
interest." [ 43] " This exception rests on the notion that 'reasonable people, even reasonable people
who are not especially honest, tend not to make 1 self-inculpatory statements unless they believe
them to be true.'" [ 44]
The district court considered each admitted statement individually and provided specific
reasons for why each one incriminated Miller. Principally, the district court explained that Miller's
statement that he saw Mack pull the trigger, if " elicited after or together with Miller's statement that he
drove Francis to Sigourney Street so that Mack could shoot Francis . . . does inculpate Miller because
it tends to show that the conspiracy described in the first statement was actually carried out and that
the conspiracy actually caused the death of Ian Francis." [ 45] Because statements are self-inculpatory
when they describe acts the declarant and defendant " committed jointly," [ 46] we agree with the
district court. We therefore conclude that the district court did not abuse its discretion in finding the
statements to be against Miller's penal interest.
II. Miller's statements were supported by corroborating circumstances .
Page 7 of 13
007

Mack next argues that Miller's statements were not " supported by corroborating circumstances
that clearly indicate [their] trustworthiness," as required by Rule 804(b)(3). " We take this
[requirement] to mean that the inference of trustworthiness from the proffered 'corroborating
Page 564
circumstances' must be 18 strong, not merely allowable." [ 47]
Here, Miller's statements were corroborated by the testimony of Anthony Brinson, Francis's
nephew, as well as by Miller's plea agreement and colloquy. Brinson stated that Francis told him,
after he was shot, that " Miller told Francis to pull over on Sigourney Street so that Miller could
urinate" and that " Miller got out of the car, walked by a masked man — and made eye contact with
him — before the masked man began shooting into Francis's vehicle." [ 48] Miller's statements to
Farmer were also consistent with Miller's representations in his plea agreement and colloquy.
Mack attacks Farmer's credibility on the basis of his past criminal convictions and as a "
jailhouse informant" who only remembered key aspects of his testimony when being prepared for trial.
But Farmer's credibility was for the jury to assess. Such credibility attacks have no bearing on
whether Miller's statements to Farmer were trustworthy, the appropriate Rule 804(b)(3) inquiry.[ 49]
For these reasons, the district court did not abuse its discretion in determining that Miller's statements
were supported by corroborating circumstances that clearly indicate their trustworthiness.
D. Any error by the district court in applying Rule 804 would have been harmless .
Even if the district court had erred in its Rule 804 analysis, we find that such an error would
have been harmless. To find the admission of Miller's statements harmless, we must be " able to
conclude that the evidence would have been unimportant in relation to everything else the jury
considered on the issue in question, as revealed in the record." [ 50]
Like Farmer's recounting of Miller's statements, compelling testimony from Lucien supported
the conclusion that Mack participated in the conspiracy to murder Francis. Lucien testified about time
spent with Mack, Jernigan, and another man the day before the Francis shooting. Specifically, he said
that Mack was angry with Francis because Francis and Wynter were " trying to turn him in" [ 51] and
that Mack said Francis " got to go." [ 52] Lucien testified further that, in an effort to gain Mack's
respect, Lucien offered to " kill Ian Francis for [Mack]," even though Lucien did not know who Francis
was.[ 53] Mack " laughed and he said [Jones] going to do it" ; Mack said that Lucien should not be
involved because he would be " too hyper" and " might fuck up." [ 54] Lucien also testified that Mack
instructed Jernigan to get a duffel bag from the closet and that Mack pulled a 9mm Ruger gun out of
the duffel bag.
It matters not that Mack told the group that Jones would be the shooter, whereas Miller said the
shooter was Mack. Either way, Mack conspired to murder Francis.
Page 565
Mack's conviction for conspiracy to murder Francis was well-supported by Lucien's testimony and
independent of Miller's statements. Thus, even assuming that the district court erroneously admitted
Farmer's testimony regarding Miller's statements, the error was harmless.
III. Admissibility of Government Exhibit 65
Page 8 of 13
008

Mack challenges the admissibility of government exhibit 65 (" GE 65" ), a summary chart of
phone bills pertaining to phone calls and text messages from December 21, 2010. The chart, entitled
" Mack, Miller, Francis, Jones, and Jernigan Timeline, 21 December 2010," depicted the fact of
certain communications between the five men on the night that Francis was shot. It identified each
man by his name and picture and indicated whether each communication was a call or text, the time
of the communication, and who initiated it. The summarized phone bills did not identify Mack, Miller,
Francis, Jones, or Jernigan by name or image, but additional evidence in the record linked these men
to the phone numbers appearing on the bills.
GE 65 was admitted as substantive evidence pursuant to Rule 1006, which allows a party to "
use a summary, chart, or calculation to prove the content of voluminous writings, recordings, or
photographs that cannot be conveniently examined in court." [ 55] We review the district court's
decision to admit the government's summary chart for abuse of discretion.[ 56]
On appeal, Mack argues that GE 65 was not admissible under Rule 1006 because it
summarized at most eight pages of recordings, did not specify the length of each call or the phone
numbers of the originating and receiving calls, was " highly selective" in terms of which calls it
included, and included evidence obtained from FBI experts and not the phone bills. But even eight
pages of phone bills can contain hundreds of calls and text messages, and this information would
have been difficult for the jury to synthesize and evaluate without the aid of a summary. A summary
need not include all the information that appears on a phone bill, such as the duration of each call, if
particular kinds of information are not relevant and are either uniformly included or uniformly
excluded. Although the summary included some information that was not on the phone bills, such as
the name of the man associated with each phone number, this additional information was already
admitted into evidence through other sources, and defense counsel was free to cross-examine the
FBI agent who made the summary chart. Mack also objects to the pictures of Mack, Miller, Francis,
Jones, and Jernigan that were included in GE 65, arguing that they looked like " mug shots" and "
made their subjects look like thugs." Appellant's Br. at 67. Although at least one of the pictures was a
booking photograph, Mack did not alert the district court to any potential prejudice these pictures
might cause. The district court focused only on whether the pictures had been produced to the
defense. Based on this record, we discern no basis to hold that the possible prejudice from the
pictures outweighed GE 65's probative value in clarifying the timeline of calls and texts revealed in the
phone bills. Therefore, in no respect did the district court abuse its discretion by admitting GE 65. In
any event, had there been error in admitting the chart, it was harmless. GE 65 was admitted to prove
Page 566
the Francis murder conspiracy. As discussed, witness testimony sufficiently supported Mack's
conviction of conspiracy to murder Francis.
IV. Sentencing Issues
Mack was convicted of two counts of conspiracy to commit witness tampering by first-degree
murder, in violation of 18 U.S.C. § 1512(k). Section 1512(k) provides that those convicted of
conspiracy to commit witness tampering " shall be subject to the same penalties as those prescribed
for the offense the commission of which was the object of the conspiracy." The district court imposed
a life sentence for each conspiracy conviction after concluding that the statutorily prescribed penalty
for either conspiracy to commit or committing witness tampering by first-degree murder is death or life
imprisonment.
Page 9 of 13
009

First, Mack challenges the district court's statutory analysis, arguing that a life sentence is not
available against defendants who conspire to commit but ultimately are not responsible for firstdegree murder. We disagree. Section 1512(k) instructs that a conspirator is subject to the same
penalty as that prescribed for the substantive offense that was the " object" of the conspiracy. The
object of a conspiracy to commit witness tampering by first-degree murder is, unsurprisingly, the
commission of witness tampering by first-degree murder. Committing witness tampering by killing or
attempting to kill an individual is prohibited by 18 U.S.C. § 1512(a)(1) and punishable in accordance
with 18 U.S.C. § 1512(a)(3). Section 1512(a)(3) specifies that the penalty for a " killing" is " the
punishment provided in sections 1111 and 1112." In turn, 18 U.S.C. § 1111 specifies that the penalty
for first-degree murder is " death" or " imprisonment for life." Because § 1512(k) adopts the penalty for
" the offense the commission of which was the object of the conspiracy," [ 57] and because the penalty
for committing witness tampering by first-degree murder is death or life imprisonment, the district
court did not err in determining that it was required to sentence Mack to the statutory minimum of life
imprisonment.
Second, Mack argues that the district court erroneously increased Mack's sentence " by
making its own factual finding that Mack was responsible for a killing." Appellant's Br. at 78. But the
district court did not do that. Rather, it was the jury that determined that Mack had conspired, with
respect to both Francis and Jernigan, with the object of committing witness tampering by first-degree
murder.[ 58] Therefore, this challenge is without merit.
Third and finally, Mack argues that his life sentence violates the Eighth Amendment's
prohibition against cruel and unusual punishment. Highlighting cases that overturned life sentences
imposed on juvenile offenders, Mack submits that " the constitutional imperative of individualized
sentencing should be extended to those who face sentences of life in prison with no possibility of
release for the crime of entering into conspiracies that have resulted in no physical harm." Appellant's
Br. at 79-80. The cases that Mack cites, however, turned on the fact that the defendant was a
juvenile. In Graham v. Florida, for example, the Supreme Court held that the Eighth Amendment
prohibits certain life sentences for juvenile offenders because
Page 567
" life without parole sentences for juveniles convicted of nonhomicide crimes [are] as rare as other
sentencing practices found to be cruel and unusual" and " developments in psychology and brain
science continue to show fundamental differences between juvenile and adult minds," lessening
juveniles' culpability and deservingness of " the most severe punishments." [ 59] Mack, an adult when
he committed his crimes, does not marshal any comparable data or moral reasoning in his Eighth
Amendment argument. Although life imprisonment is inarguably a stiff penalty, this alone does not
offend the Eighth Amendment . We agree with the district court that the appropriateness of Mack's
mandatory penalty of death or life imprisonment is a policy question for Congress and not a
constitutional question for the courts.
CONCLUSION
For these reasons, and for those set forth in the accompanying summary order, the judgment
of conviction and sentence are AFFIRMED.
--------Notes:

Page 10 of 13
010

[2]

Mack was acquitted of two counts of witness tampering by first-degree murder of Francis, in violation of 18 U.S.C. §§ 2,
1512(a)(1)(A), and 1512(a)(1)(C).
[3]

Mack's remaining arguments on appeal are addressed in a summary order filed simultaneously with this opinion.

[*]

Judge Katherine Polk Failla, of the United States District Court for the Southern District of New York, sitting by designation.

[4]

Mack was acquitted of two counts of witness tampering by first-degree murder of Francis, in violation of 18 U.S.C. §§ 2,
1512(a)(1)(A), and 1512(a)(1)(C).
[5]

Mack's remaining arguments on appeal are addressed in a summary order filed simultaneously with this opinion.

[6]

Gov. App'x at 1281-82.

[7]

Id. at 1304.

[8]

Id. at 1318.

[9]

Id. at 1319.

[10]

18 U.S.C. §§ 922(g) and 924(a)(2) bar various categories of persons, including felons, fugitives from justice, and
individuals dishonorably discharged from the Armed Forces, from possessing firearms.

[11]

Gov. App'x at 2106.

[12]

139 S.Ct. 2191, 204 L.Ed.2d 594 (2019).

[13]

United States v. Nouri, 711 F.3d 129, 138 (2d Cir. 2013) (internal quotation marks and alterations omitted) (quoting
United States v. Marcus, 560 U.S. 258, 262, 130 S.Ct. 2159, 176 L.Ed.2d 1012 (2010)).
[14]

Rehaif, 139 S.Ct. at 2200.

[15]

United States v. Gomez, 580 F.3d 94, 100-01 (2d Cir. 2009) (quoting United States v. Guevara, 298 F.3d 124, 126-27 (2d
Cir. 2002)).
[16]

Id. at 101 (" To sustain the conviction, we must find that the jury would have returned the same verdict beyond a
reasonable doubt." ) (citing United States v. Jackson, 196 F.3d 383, 386 (2d Cir. 1999)). Our conclusion would not differ
depending on who bears the burden of persuasion in this appeal. Accordingly, we decline to resolve the parties'
disagreement over whether " modified plain error" or our standard plain-error review applies.
[17]

See Neder v. United States, 527 U.S. 1, 19, 119 S.Ct. 1827, 144 L.Ed.2d 35 (1999) (in assessing " whether the jury
verdict would have been the same absent the error . . . a court, in typical appellate-court fashion, asks whether the record
contains evidence that could rationally lead to a contrary finding with respect to the omitted element" ); see also United
States v. Sepulveda, No. 18-cr-363 (RJS), 420 F.Supp.3d 153, 2019 WL 5704398, at *12 (S.D.N.Y. Nov. 5, 2019) (declining
to " 'engage in pure speculation . . . of what a reasonable jury would have done' if facts adduced at sentencing had also been
introduced at trial" ).
[18]

Mack's stipulation reads, " [P]rior to December 21, 2010, Dominique Mack was convicted of a crime punishable by
imprisonment for a term exceeding one year in Connecticut Superior Court, Judicial District of Hartford." Appellant's
Amended Supplemental Br. at 2.
[19]

See United States v. Gordon, 156 F.3d 376, 380 (2d Cir. 1998) (per curiam) ( counsel's failure to inform his defendant of "
the full extent of his sentencing exposure upon conviction" before the defendant went to trial constituted ineffective
assistance of counsel).
[20]

Caputo v. Henderson, 541 F.2d 979, 983 (2d Cir. 1976) (describing that the constitutional voluntariness of a guilty plea
turns, in part, on whether the trial court informs the defendant of the maximum sentence possible).

[21]

943 F.3d 73, 97 (2d Cir. 2019).

Page 11 of 13
011

[22]

Nouri, 711 F.3d at 138 (internal quotation marks and alterations omitted) (quoting Marcus, 560 U.S. at 262).

[23]

See Fed.R.Evid. 403 (" The court may exclude relevant evidence if its probative value is substantially outweighed by the
danger of . . . unfair prejudice" ); see also Old Chief v. United States, 519 U.S. 172, 192, 117 S.Ct. 644, 136 L.Ed.2d 574
(1997). Most defendants charged with violations of § 922(g)(1) avail themselves of Old Chief in order to keep the nature and
details of their prior felony convictions from the jury. Thus, in many pre-Rehaif § 922(g)(1) cases, the trial record will contain
limited evidence regarding the defendant's knowledge of his felon status. Rehaif now tells us that the defendant's knowledge
of his felony status is an element of a § 922(g)(1) offense that the government must prove. Because defendants typically
avail themselves of Old Chief when they have multiple or damning felony records, it should come as no surprise that a
reviewing court, conducting plain-error review, will find that the fairness, integrity, or public reputation of judicial proceedings
has not been affected, when considering evidence of the defendant's felony status beyond just the trial record.

[24]

We note that numerous other circuits that have considered the Rehaif issue have likewise found no reversible error in
these or similar circumstances. However, the other circuits have so decided based on the third prong of plain-error review.
See, e.g., United States v. Conley, No. 19-5168, 2020 WL 571324 (6th Cir. Feb. 5, 2020); United States v. Mancillas, 789
Fed.Appx. 549, 550 (7th Cir. 2020); United States v. Reed, 941 F.3d 1018, 1021-22 (11th Cir. 2019); United States v.
Hollingshed, 940 F.3d 410, 415-16 (8th Cir. 2019); United States v. Benamor, 937 F.3d 1182, 1188-89 (9th Cir. 2019).
[25]

United States v. Williams, 506 F.3d 151, 155 (2d Cir. 2007).

[26]

United States v. Tropeano, 252 F.3d 653, 659 (2d Cir. 2001).

[27]

United States v. Lombardozzi, 491 F.3d 61, 76 (2d Cir. 2007) (internal quotation marks omitted).

[28]

Fed.R.Evid. 804(b)(3).

[29]

United States v. Lang, 589 F.2d 92, 95 (2d Cir. 1978).

[30]

See United States v. Jackson, 335 F.3d 170, 177 (2d Cir. 2003); Lang, 589 F.2d at 95.

[31]

Gov. App'x at 742.

[32]

Id. at 2293.

[33]

App'x at 104-05.

[34]

United States v. Williams, 927 F.2d 95, 99 (2d Cir. 1991) (holding that it was " at most harmless error" for the district court
to rely on " the representations of the attorneys for the incarcerated defendants concerning their clients' intentions to rely on
their Fifth Amendment privileges" ).

[35]
[36]

Id.
See Brief for the United States at 56, Williams, 927 F.2d 95 (No. 89-1504), 1990 WL 10029894.

[37]

See Fed.R.Evid. 804(a) (a witness is not unavailable " if the statement's proponent procured or wrongfully caused the
declarant's unavailability as a witness in order to prevent the declarant from attending or testifying" ).

[38]

United States v. Le, 902 F.3d 104, 109 (2d Cir. 2018) (citing Marcus, 560 U.S. at 262).

[39]

App'x at 42 (emphasis added).

[40]

Id. at 46.

[41]

Fed.R.Evid. 804(b)(3).

[42]

Williams, 506 F.3d at 155 (citation omitted).

[43]

United States v. Saget, 377 F.3d 223, 231 (2d Cir. 2004), supplemented, 108 Fed.Appx. 667 (2d Cir. 2004).

[44]

Jackson, 335 F.3d at 178 (quoting Williamson v. United States, 512 U.S. 594, 599, 114 S.Ct. 2431, 129 L.Ed.2d 476

Page 12 of 13
012

(1994)).
[45]

App'x at 99.

[46]

Saget, 377 F.3d at 231; see also United States v. Wexler, 522 F.3d 194, 203 (2d Cir. 2008).

[47]

United States v. Salvador, 820 F.2d 558, 561 (2d Cir. 1987).

[48]

Gov. App'x at 2296-97.

[49]

See United States v. Casamento, 887 F.2d 1141, 1170 (2d Cir. 1989) (stating that " the court should not look to the
credibility of the in-court witness" in evaluating trustworthiness for Rule 804(b)(3) purposes because " [a]ssessing the
credibility of an in-court witness is the role of the jury" ).

[50]

Lombardozzi, 491 F.3d at 76 (internal quotation marks omitted).

[51]

Gov. App'x at 1170-71, 1172.

[52]

Id. at 1173 .

[53]

Id. at 1174-75 .

[54]

Id. at 1175 .

[55]

Fed.R.Evid. 1006.

[56]

United States v. Pinto, 850 F.2d 927, 935 (2d Cir. 1988).

[57]

18 U.S.C. § 1512(k) (emphasis added).

[58]

" The jury was also instructed that to convict on both Count One and Count Four they had to find that the type of murder
that was the object of the conspiracy was first degree murder. No one objected to these instructions." App'x at 270.

[59]

560 U.S. 48, 66, 68, 130 S.Ct. 2011, 176 L.Ed.2d 825 (2010), as modified (July 6, 2010) (internal quotation marks
omitted).
---------

Page 13 of 13
013

Case 16-3734, Document 186, 04/02/2020, 2812622, Page1 of 6

16-3734-cr
United States v. Dominique Mack, et al.

UNITED STATES COURT OF APPEALS
FOR THE SECOND CIRCUIT

SUMMARY ORDER
Rulings by summary order do not have precedential effect. Citation to a summary order filed
on or after January 1, 2007, is permitted and is governed by Federal Rule of Appellate
Procedure 32.1 and this Court’s Local Rule 32.1.1. When citing a summary order in a
document filed with this Court, a party must cite either the Federal Appendix or an
electronic database (with the notation “summary order”). A party citing a summary order
must serve a copy of it on any party not represented by counsel.
1
2
3
4
5
6
7
8
9
10
11
12
13
14
15
16
17
18
19
20
21
22
23
24
25
26
27
28
29
30
31

At a stated term of the United States Court of Appeals for the Second Circuit, held at
the Thurgood Marshall United States Courthouse, 40 Foley Square, in the City of New York,
on the 2nd day of April, two thousand twenty.
PRESENT:

JOHN M. WALKER, JR.,
DEBRA ANN LIVINGSTON,
Circuit Judges,
KATHERINE POLK FAILLA,
District Judge.*

UNITED STATES OF AMERICA,
Appellee,

16-3734-cr

v.
KERONN MILLER, aka Fresh, TYQUAN LUCIEN, aka
TQ, aka Frogger,
Defendants,
DOMINIQUE MACK, aka Lil Sweets,
Defendant-Appellant.

FOR APPELLEE:

BRIAN P. LEAMING (Jennifer R. Laraia,
Marc H. Silverman, on the brief) Assistant
United States Attorneys, for John H.

* Judge Katherine Polk Failla, of the United States District Court for the Southern District of New
York, sitting by designation.
014

Case 16-3734, Document 186, 04/02/2020, 2812622, Page2 of 6

1
2
3
4
5
6
7
8

Durham, United States Attorney for the
District of Connecticut.
JEREMIAH DONOVAN, Old Saybrook, CT.

FOR DEFENDANT-APPELLANT:

Appeal from a judgment entered in the United States District Court for the District of
Connecticut (Michael P. Shea, Judge) following a jury trial.

9
10
11

UPON DUE CONSIDERATION WHEREOF, IT IS HEREBY ORDERED,
ADJUDGED, AND DECREED that the judgment of the District Court be and hereby is
AFFIRMED.

12
13
14
15
16
17
18

Defendant Dominique Mack appeals from a judgment entered in the United States District
Court for the District of Connecticut following a jury trial before Michael P. Shea, Judge, convicting
him of conspiracy to commit witness tampering related to the death of Ian Francis, conspiracy to
commit witness tampering by planning to murder Charles Jernigan, and two counts of unlawful
possession of a firearm by a felon. The district court sentenced Mack to life imprisonment for each
conspiracy conviction and ten years’ imprisonment for each firearms conviction, to run concurrently.
We assume the parties’ familiarity with the facts, procedural history, and issues for review.

19
20
21
22
23
24
25
26
27
28

On appeal, Mack primarily challenges the adequacy of the jury instructions, certain evidentiary
rulings by the district court, and the imposition of a life sentence for the conspiracy convictions. These
issues are addressed in a separate opinion issued simultaneously with this summary order. We now
address Mack’s remaining arguments: (i) that the district court lacked jurisdiction over the prosecution
of Mack’s firearms charge; (ii) that the district court’s approach to re-cross examination, crossexamination, and voir dire violated Mack’s rights to due process and to confront the witnesses against
him; (iii) that the evidence was insufficient to establish that Mack entered into a conspiracy to murder
Jernigan; and (iv) that Mack is entitled to have cell-site location information related to his whereabouts
on the evening of the Francis shooting suppressed in light of the Supreme Court’s decision in Carpenter
v. United States, 138 S. Ct. 2206 (2018).

29
30
31
32
33
34
35
36
37

A. Jurisdiction to adjudicate firearms charge
United States v. Rehaif, 139 S. Ct. 2191 (2019), held that in prosecuting charges under 18 U.S.C.
§§ 922(g) and 924(a)(2), the government must prove that the defendant knew he was a member of a
class of persons forbidden from possessing firearms. On appeal, Mack argues that in failing to allege
scienter with respect to his status, the indictment failed to allege a federal crime that the district court
would have jurisdiction to adjudicate. The Second Circuit recently addressed and rejected this
argument in United States v. Balde, 943 F.3d 73 (2d Cir. 2019). Recounting that “the standard for the
sufficiency of an indictment is not demanding,” and that indictments suffice even if they “do little
more than . . . track the language of the statute,” id. at 89 (quoting United States v. Stringer, 730 F.3d
2

015

Case 16-3734, Document 186, 04/02/2020, 2812622, Page3 of 6

1
2
3
4
5
6
7
8
9
10
11

120, 124 (2d Cir. 2013)), Balde confirmed the jurisdiction of a district court in response to an
indictment structured virtually identically to Mack’s, id. at 92. Like Mack’s indictment, the indictment
at issue in Balde specified the time and place of the defendant’s conduct, described the status of the
defendant that forbade the defendant from possessing a firearm, stated that the defendant “knowingly
did possess” a firearm “in and affecting commerce,” and then described the firearm and its transit in
interstate commerce. Id. at 89. The indictment at issue in Balde did not allege that the defendant knew
he held the status described. Id. That Mack’s indictment for his firearms charge failed to allege that
Mack knew he had previously been convicted of a felony “does not mean that the indictment fails to
allege a federal offense in the sense that would speak to the district court’s power to hear the case.”
Id. at 91. Mack’s challenge to the district court’s jurisdiction fails.
B. Approach to re-cross examination, cross-examination, and voir dire

12
13
14
15
16
17
18
19
20
21
22
23
24
25
26

A “primary interest secured” by the Confrontation Clause of the Sixth Amendment is the right
of cross-examination, which “is the principal means by which the believability of a witness and the
truth of his testimony are tested.” Davis v. Alaska, 415 U.S. 308, 315 (1974) (quoting Douglas v.
Alabama, 389 U.S. 415, 418 (1965)). In addition, “[t]he rights to confront and cross-examine witnesses
and to call witnesses in one’s own behalf have long been recognized as essential to due process.”
Chambers v. Mississippi, 410 U.S. 284, 294 (1973); see also Matter of Kitchen, 706 F.2d 1266, 1273 (2d Cir.
1983) (“Full cross-examination of the government’s witnesses is an essential element of both the right
to present defenses and the right to confront the government’s evidence.”). These rights, however,
are not unlimited. The district court enjoys a “wide latitude insofar as the Confrontation Clause is
concerned to impose reasonable limits on such cross-examination based on concerns about, among
other things, harassment, prejudice, confusion of the issues, the witness’ safety, or interrogation that
is repetitive or only marginally relevant.” Delaware v. Van Arsdall, 475 U.S. 673, 679 (1986). We reverse
restrictions on cross-examination only when the district court has abused its “broad discretion.”
United States v. James, 712 F.3d 79, 103 (2d Cir. 2013) (quoting United States v. Caracappa, 614 F.3d 30,
42 (2d Cir. 2010)).

27
28
29
30
31
32

On appeal, Mack argues that the district court erred when it did not permit his counsel to recross-examine witnesses or to cross-examine witnesses on additional topics. But an inspection of the
record reveals that the information Mack sought to elicit through re-cross-examination could have
been gleaned during cross-examination, and the information Mack sought to elicit through further
cross-examination would have presented irrelevant or duplicative testimony that would likely confuse
the jury. Therefore, the district court’s rulings in this regard were not an abuse of discretion.

33
34
35
36

Mack also argues that the district court erred by refusing to allow the defense to conduct voir
dire of the government’s proffered audio recording transcript for a conversation between Lucien and
his cellmate. The district court did not permit voir dire because the transcript was an aid to the audio
recording exhibit, rather than an exhibit itself, and the district court gave the jury a limiting instruction
3

016

Case 16-3734, Document 186, 04/02/2020, 2812622, Page4 of 6

1
2

regarding the transcript. Furthermore, Mack had the opportunity to cross-examine Lucien on the
accuracy of the transcript. We do not believe the district court abused its discretion here, either.

3
4
5
6
7
8
9
10
11
12

Finally, Mack argues that the district court erred by admonishing trial counsel for repeatedly
trying to ask questions over objections. “Our role . . . is not to determine whether the trial judge’s
conduct left something to be desired, or even whether some comments would have been better left
unsaid. Rather, we must determine whether the judge’s behavior was so prejudicial that it denied [the
defendant] a fair, as opposed to a perfect, trial.” United States v. Pisani, 773 F.2d 397, 402 (2d Cir. 1985)
(citing United States v. Robinson, 635 F.2d 981, 984 (2d Cir. 1980)). When the district court admonished
defense counsel, admittedly somewhat harshly, it provided reasons for doing so. The district court’s
admonishments typically came after defense counsel made the same objection after repeatedly being
overruled. Even if the district court’s behavior may have at times left something to be desired, it did
not deny Mack a fair trial.

13

C. Sufficiency of the evidence

14
15
16
17
18
19
20

On appeal, Mack argues that the evidence is insufficient to support his conviction for
conspiracy to murder Jernigan. In reviewing his challenge, we “view the evidence in the light most
favorable to the government, drawing all inferences in the government’s favor and deferring to the
jury’s assessments of the witnesses’ credibility.” United States v. Allah, 130 F.3d 33, 45 (2d Cir. 1997).
“We must affirm the conviction so long as any rational trier of fact could have found the essential
elements of the crime beyond a reasonable doubt.” United States v. Jackson, 180 F.3d 55, 74 (2d Cir.),
on reh’g, 196 F.3d 383 (2d Cir. 1999).

21
22
23
24
25
26
27
28
29
30
31
32
33

The conspiracy to murder Jernigan arose between Mack and Lucien while they were
incarcerated at the same facility. Although they were subject to a separation order, Mack and Lucien
were able to meet several times. During one of these meetings, Lucien told Mack that he thought
Jernigan might testify against Mack if Jernigan were in federal custody. Mack responded that “[I] got
to do something about it. Like he got to go.” Gov. App’x at 1281. Lucien understood that to mean
“[Jernigan’s] a dead man.” Gov. App’x at 1282. Lucien told Mack, “I’m going see what I can do
about it.” Gov. App’x at 1282. In response, Mack laughed, which Lucien understood to signify an
“agreement” because “[h]e ain’t say no. So it was a go.” Gov. App’x at 1284. During a visit a month
later, Mack told Lucien that “he got a CD from his evidence that Charles Jernigan had said that he
seen [Lucien] with the murder weapon,” Gov. App’x at 1287, that a superseding indictment was
coming, and that Lucien might be involved, Gov. App’x at 1294. Mack told Lucien that Jernigan is
“getting risky,” meaning “[d]angerous for the trial,” and asked Lucien to “[g]et rid of him.” Gov.
App’x at 1298.

34
35
36

Lucien’s first plan had been to get out of jail on bond so that he could kill Jernigan himself.
He was not able to get out on bond, however, and turned to his cellmate for help. Lucien’s cellmate
told Lucien that “[h]is boy could kill [Jernigan],” and the cellmate arranged a meeting between Lucien
4

017

Case 16-3734, Document 186, 04/02/2020, 2812622, Page5 of 6

1
2
3
4
5
6
7
8

and his associate. Gov. App’x at 1303. Lucien’s cellmate was working for the FBI, and the associate
who met with Lucien was in fact an undercover agent. When Lucien met with the agent, he gave the
agent Jernigan’s home address, which he had gotten from Mack. Lucien also told the agent that
Jernigan lived with his girlfriend and a daughter, and that any witnesses should be killed. Some time
later, Lucien and Mack met again through a prison visit, and Lucien told Mack, “I sent my peoples,
they came Friday.” Gov. App’x at 1318. Lucien wanted Mack to “know everything’s a go.” Id.
During this conversation, Mack confirmed the address that Lucien gave to the agent, asking Lucien
“if the address is right.” Gov. App’x at 1319.

9
10
11
12

From Lucien’s testimony, the jury could have reasonably concluded that Mack instructed
Lucien to kill Jernigan and attempted to facilitate Jernigan’s murder by providing Lucien with his
address. Lucien’s testimony is sufficient to support a determination of Mack’s guilt beyond a
reasonable doubt.

13
14
15
16
17
18
19
20
21
22
23
24
25
26

On appeal, Mack raises three challenges beyond the content of Lucien’s testimony. First, he
argues that the evidence is insufficient because it consists solely of Lucien’s testimony. However, it is
“well established that a federal conviction may be supported ‘by the uncorroborated testimony’ of
even a single accomplice witness ‘if that testimony is not incredible on its face and is capable of
establishing guilt beyond a reasonable doubt.’” United States v. Florez, 447 F.3d 145, 155 (2d Cir. 2006)
(quoting United States v. Parker, 903 F.2d 91, 97 (2d Cir. 1990)). We do not find Lucien’s testimony to
be incredible on its face. Second, Mack makes the related argument that Lucien’s testimony was not
corroborated. But even if this is true, “any lack of corroboration goes only to the weight of the
evidence, not to its sufficiency. The weight is a matter for argument to the jury, not a ground for
reversal on appeal.” United States v. Roman, 870 F.2d 65, 71 (2d Cir. 1989) (citing Compton v. Luckenbach
Overseas Corp., 425 F.2d 1130, 1132 & n.2 (2d Cir. 1970)). Finally, Mack argues that Lucien is a felon
who lied to the FBI and was indicted for false statements. Mack asks us to second-guess the jury’s
determination that Lucien’s testimony was credible. We decline to do so. See United States v. Baker,
899 F.3d 123, 130 (2d Cir. 2018) (quoting Florez, 447 F.3d at 156).

27
28

For these reasons, Mack’s sufficiency of the evidence challenge to his conviction of conspiracy
to murder Jernigan fails.

29
30
31
32
33
34
35

D. Suppression of Evidence
The government obtained and presented to the jury three days of cell-site location information
for Mack’s cellphone. This information was obtained pursuant to a Stored Communications Act order
on November 14, 2011. Pursuant to the Stored Communications Act, obtaining the order did not
require a showing of probable cause. On appeal, Mack challenges the admission of this cell-site
location information in light of the Supreme Court’s recent decision in Carpenter v. United States, 138 S.
Ct. 2206 (2018). “When considering an appeal stemming from a motion to suppress evidence, we

5

018

Case 16-3734, Document 186, 04/02/2020, 2812622, Page6 of 6

1
2

review legal conclusions de novo and findings of fact for clear error.” United States v. Zodhiates, 901
F.3d 137, 143 (2d Cir. 2018).

3
4
5
6
7
8
9
10
11
12
13
14
15
16
17
18
19

In Carpenter, the Supreme Court held that “an individual maintains a legitimate expectation of
privacy in the record of his physical movements as captured through [cell-site location information],”
138 S. Ct. at 2217, and that as a result, the Fourth Amendment requires the government to obtain a
warrant supported by probable cause before obtaining this type of record, id. at 2221. However, there
is a “good faith” exception to this rule. “[W]hen the Government acts with an objectively reasonable
good-faith belief that their conduct is lawful, the exclusionary rule does not apply. This exception
covers searches conducted in objectively reasonable reliance on appellate precedent existing at the
time of the search.” Zodhiates, 901 F.3d at 143 (citations, modifications, and internal quotation marks
omitted). In Zodhiates, we considered a similar factual scenario and concluded that “in 2011, prior to
Carpenter, a warrant was not required for the cell records.” Id. at 144. Although Zodhiates addressed
information obtained under the Stored Communications Act’s subpoena requirement rather than its
order requirement, this is not a material distinction. See United States v. Chambers, 751 F. App’x 44, 46–
47 (2d Cir. 2018) (applying Zodhiates to a case in which information was obtained pursuant to the
Stored Communications Act’s order requirement and concluding that the good faith exception applied
and that suppression of the cell-site records at issue was not required). For these reasons, we conclude
that although Carpenter does apply to the cell-site location information at issue in this case, the goodfaith exception also applies, and this evidence did not need to be suppressed.

20

CONCLUSION

21
22
23

We have reviewed Mack’s remaining arguments and find them to be without merit. For the
reasons set forth in both the accompanying opinion and this summary order, the judgment of
conviction and sentence are AFFIRMED.

24
25
26

FOR THE COURT:
Catherine O’Hagan Wolfe, Clerk

6

019

Case 16-3734, Document 207, 05/27/2020, 2848043, Page1 of 1

UNITED STATES COURT OF APPEALS
FOR THE

SECOND CIRCUIT
_____________________________________________
At a stated term of the United States Court of Appeals for the Second Circuit, held at the
Thurgood Marshall United States Courthouse, 40 Foley Square, in the City of New York, on the
27th day of May, two thousand twenty.
________________________________________
United States of America,
Appellee,
ORDER
v.

Docket No: 16-3734

Keronn Miller, AKA Fresh, Tyquan Lucien, AKA TQ,
AKA Frogger,
Defendants,
Dominique Mack, AKA Lil Sweets,
Defendant - Appellant.
_______________________________________
Appellant, Dominique Mack, filed a petition for panel rehearing, or, in the alternative, for
rehearing en banc. The panel that determined the appeal has considered the request for panel
rehearing, and the active members of the Court have considered the request for rehearing en banc.
IT IS HEREBY ORDERED that the petition is denied.
FOR THE COURT:
Catherine O'Hagan Wolfe, Clerk

020

Case 16-3734, Document 197, 04/15/2020, 2819953, Page1 of 1

UNITED STATES COURT OF APPEALS
FOR THE
SECOND CIRCUIT
At a Stated Term of the United States Court of Appeals for the Second Circuit, held at the
Thurgood Marshall United States Courthouse, 40 Foley Square, in the City of New York, on the
15th day of April, two thousand twenty,
Before:

Debra Ann Livingston,
Circuit Judge.
________________________________
United States of America,
ORDER
Appellee,
Docket No. 16-3734
v.
Dominique Mack, AKA Lil Sweets,
Defendant - Appellant.
________________________________
Appellant moves for an extension to April 23, 2020 to file a petition for rehearing or
rehearing en banc.
IT IS HEREBY ORDERED that the motion is GRANTED.
For the Court:
Catherine O’Hagan Wolfe,
Clerk of Court

021

Case 16-3734, Document 202, 04/27/2020, 2826633, Page1 of 1

UNITED STATES COURT OF APPEALS
FOR THE
SECOND CIRCUIT
At a Stated Term of the United States Court of Appeals for the Second Circuit, held at the
Thurgood Marshall United States Courthouse, 40 Foley Square, in the City of New York, on the
27th day of April, two thousand twenty.
Before:

Debra Ann Livingston,
Circuit Judge.
________________________________
ORDER
United States of America,
Docket No. 16-3734
Appellee,
v.
Dominique Mack, AKA Lil Sweets,
Defendant - Appellant.
________________________________
Appellant moves for an extension of time to April 27, 2020 to file a petition for rehearing
or rehearing en banc.
IT IS HEREBY ORDERED that the motion is GRANTED.
For the Court:
Catherine O’Hagan Wolfe,
Clerk of Court

022

023

024

025

026

027

028

029

030

031

032

033

034

035

036

037

038

039

040

041

042

043

044

045

046

047

048

049

050

051

052

053

054

055

056

057

058

059

060

061

062

063

064

065

066

067

068

069

070

071

072

073

074

075

076

077

078

079

080

081

082

083

084

085

086

087

088

1026
1

MR. DONOVAN:

2

THE COURT:

3

Ladies and gentlemen, ignore the last comment other

4

MR. LEAMING:
Your Honor.

THE COURT:

8

MR. LEAMING:

10

That will be stricken.

Q.

That wasn't offered for the truth,

It was to set the stage.

7

9

Yes.

than he was mad.

5
6

Can we ask that that be stricken?

I agree with Mr. Donovan.
All right.

That's fine

So you have a conversation.

Do you remember where

the conversation took place?

11

A.

On Keronn's grandmother's porch.

12

Q.

Is this the same grandmother that lives on

13

Mansfield Street?

14

A.

Yes.

15

Q.

And did you ask Keronn about any information he had

16

about Ian's -- about the shooting of Ian Francis?
THE COURT:

17

Just say yes or no to that, sir.

18

A.

Yes.

19

Q.

And what did Mr. Miller tell you about the shooting

20

of Ian Francis?

21

A.

That he was there.

22

Q.

What else did he tell you, if anything?

23

A.

That Little Sweets shot him.

24

Q.

Did he give you the details as to how that came

25

about?

089

1027
1

A.

Yes.

2

Q.

What did he say?

3

MR. DONOVAN:

4

THE COURT:

5

I guess I have an objection.
Well, I'm going to overrule it as to

this question.
MR. DONOVAN:

6

Thank you, Your Honor.

7

A.

That Keronn brought him there.

8

Q.

That Keronn brought who there?

9

A.

Ian to Sigourney Street.

10

Q.

What, if anything, did Mr. Miller say as to why he

11

brought Mr. Francis to Sigourney Street?

12

A.

Told him so he could get his gun back.

13

Q.

And did Mr. Miller tell you if he knew what was

14

going to happen or not to Mr. Francis when he brought him to

15

Sigourney Street?

16

A.

Yes.

17

Q.

What did he say?

18

A.

To get shot.

19

Q.

Did Mr. Miller tell you who was going to shoot

21

A.

Yes.

22

Q.

Who was that?

23

A.

Little Sweets.

20

him?

24

MR. DONOVAN:

25

THE COURT:

Objection.
It's overruled.

090

1028
MR. DONOVAN:

1

Thank you, Your Honor.

2

Q.

I'm sorry.

What was your answer, sir?

3

A.

Little Sweets.

4

Q.

And what, if anything, did Mr. Miller say happened

5

when he and Mr. Francis arrived on Sigourney Street that

6

night?

7

A.

8
9

He say he got out of the car to use the bathroom

and watched Little Sweets walk up and shoot him.
Q.

You mentioned that Mr. Miller told you about -- I

10

don't want to mischaracterize your testimony so I'll say it

11

as generally as I can.

12

that Mr. Miller said about going to Sigourney Street to get a

13

gun back.

Do you remember that testimony?

14

A.

Yes.

15

Q.

Okay.

16
17
18

I think you testified about something

What did Mr. Miller tell you about the gun

and getting it back?
A.

That he told Ian he's going to give him his gun

back.

19

Q.

Say that again.

20

A.

Told Ian he was going to give him his gun back.

21

Q.

And or not -- did Mr. Miller tell you there was any

22

other reason why he was bringing Ian to Sigourney Street that

23

night?
THE COURT:

24
25

A.

Just say yes or no to that, sir.

Yes.

091

1029
1
2
3

Q.

Did Mr. Miller tell you in this conversation about

whether or not he was going to give the gun back to Ian?
A.

The gun was gone.

4

MR. DONOVAN:

5

THE COURT:

I'm sorry?
State it again, sir, louder.

6

A.

The gun was gone.

7

Q.

What specifically did Mr. Miller say about the gun

8

to you during this conversation, the gun that he was saying

9

he was going to give back to Mr. Francis?

10

A.

That he sold it.

11

Q.

After that conversation with Mr.

12

Miller -- withdrawn.
I want to go back to an earlier time if you can

13
14

recall this, Mr. Farmer.

Did you have an earlier

15

conversation with Mr. Miller, meaning earlier before Ian

16

Francis was shot, about a firearm?

17

A.

Yes.

18

Q.

And in relationship, again, using the date -- the

19

night that Ian got shot, when was that conversation?

20

MR. DONOVAN:

21

THE COURT:

22

conversation?

To the question when was that

That's overruled.

23

MR. DONOVAN:

24

THE COURT:

25

I'll object.

As to this line of questioning.
Let's take it question by question.

That one's overruled.

092

1030
MR. DONOVAN:

1
2
3

Q.

Thank you, Your Honor.

Again, going back in time from the night of the

shooting, when was that conversation with Mr. Miller?

4

A.

About a week before.

5

Q.

And was this a conversation -- describe for us, was

6

this an in person conversation, telephone conversation,

7

texting?

8

A.

In person.

9

Q.

And where was this conversation?

10

A.

On his grandmother's porch.

11

Q.

And during this conversation -- well, tell

12

us -- did the subject of the conversation relate to a

13

firearm?

14

A.

Yes.

15

Q.

Could you tell us what the conversation was?

16

MR. DONOVAN:

17

THE COURT:

18

(Whereupon, the following conference was held at

19
20
21
22

Objection.
I'll see counsel briefly.

side-bar.)
THE COURT:

So I don't know what this is about.

Come closer.
MR. LEAMING:

He's going to say that he had a

23

conversation and a meeting like he's described with

24

Mr. Miller, whether Mr. Miller was in possession of a weapon

25

that Mr. Farmer believes was the weapon that killed Ian.

093

1031
1

THE COURT:

2

MR. DONOVAN:

3

Well -I can cut this short, though.

He's

not going to say anything about Mack, though?

4

MR. LEAMING:

Not in this conversation.

5

MR. DONOVAN:

So I'll withdraw it.

6

MR. LEAMING:

He's going to talk about his second

7

meeting he had with Miller after the shooting where Mr.

8

Miller, again, is trying to basically swap one gun for a gun

9

that Mr. Farmer had, but he makes a statement that Sweets

10
11

says to give you an extra 200 bucks.
THE COURT:

Wait, let me go first.

So there's

12

another conversation after the shooting between Miller and

13

Farmer and Miller tells -- what is that conversation?

14

MR. LEAMING:

So it's a follow-up to the first

15

conversation.

The first conversation is Miller wants to swap

16

him a nine millimeter for a .40 caliber that Mr. Farmer has

17

and Farmer says no.

18

has another meeting and says Little Sweetses says he'll offer

19

another $200 or, words to that effect, in addition to the gun

20

for the swap and he says no.

21

THE COURT:

After the shooting Miller comes back,

Miller conveys to Farmer an offer from

22

Little Sweets, is that right?

23

MR. LEAMING:

24

THE COURT:

25

MR. DONOVAN:

Yes.
How does that inculpate Miller?
I can make this shorter.

094

And he had

1032
1

the gun with him, he showed him the gun?

2

MR. LEAMING:

Yes.

3

MR. DONOVAN:

So the only thing you have -- you rule

4

whatever you want, but as far as the defense goes, as far as

5

my objection goes, the only thing you have to rule on is the

6

statement.

7
8
9

THE COURT:

About Little Sweets?

Why does that

inculpate Miller?
MR. LEAMING:

First of all, it's after the shooting.

10

The conspiracy to kill Ian is still ongoing.

11

with the death -- first of all, he's still alive.

12
13

THE COURT:

MR. LEAMING:

15

THE COURT:

16

MR. LEAMING:

18

You're claiming it's a statement in

furtherance?

14

17

It doesn't end

And against his penal interest.
Why?
First of all, He's engaging in

unlawful distribution of firearms.
THE COURT:

But I have to go statement by statement.

19

And so the statement that Little Sweets has thrown in another

20

200 bucks, why is that something that inculpates Miller?

21
22

MR. LEAMING:
the shooting.

23

THE COURT:

24

MR. LEAMING:

25

Because it ties him to the murder, to

How?
Because he says Little Sweets, he

knows the shooter.

095

1033
THE COURT:

1
2

Maybe I'm confused.

Is it the gun, the

Ruger, the murder weapon?

3

MR. LEAMING:

4

THE COURT:

Yes.
So Miller was trying to have Farmer take

5

the murder weapon so that Farmer would give another gun and

6

then Little Sweets is --

7

MR. LEAMING:

8

THE COURT:

Right.
I see.

I see.

Okay.

So why isn't that

9

inculpatory of Miller when he says and Little Sweets will

10

throw in another 200 bucks in this sense that Miller and,

11

according to the Government's theory, Miller and your client

12

are conspirators, they carry out the murder.

13

working together to get rid of a murder weapon.

14

conveys an offer that him and Little Sweets -- it also

15

incriminates both of them.
MR. DONOVAN:

16

Now they're
Miller

Is the Government claiming that this

17

took place during the period of time charged in the

18

indictment for the conspiracy?

19

MR. LEAMING:

20

Ian -THE COURT:

21
22
23

It was after the shooting but before

Doesn't matter if it inculpates

Miller.
MR. DONOVAN:

Let's focus just on that rather than a

24

statement in furtherance of the conspiracy.

25

way this in particular implicates Miller.

096

I don't see any

1034
THE COURT:

1

It would make him an accessory after the

2

fact alone.

We'll take it question by question.

3

agree, but we'll take it question by question.

4

(Side-bar concluded.)

5

MR. DONOVAN:

6

To the last point, I withdraw my

objection.
THE COURT:

7
8

ahead.

9

BY MR. LEAMING:

10

I tend to

Q.

That's fine.

Attorney Leaming, go

I think I asked -- it's been some time.

I think I

11

asked you about the conversation you had with Mr. Miller on

12

his grandmother's front porch about the gun.

13

that question?

Do you recall

14

A.

Yes.

15

Q.

Could you tell us what the nature of the

16

conversation was on that day?

17

A.

Wanted to trade guns.

18

Q.

He wanted to trade it with who?

19

A.

Me.

20

Q.

And did you have at that time in your possession a

21

firearm?

22

A.

No.

23

Q.

Did you have under your control at some other

24
25

location a firearm that was accessible to you?
A.

Yes.

097

1035
1

Q.

What kind of a gun was that?

2

A.

.40 caliber Smith & Wesson.

3

Q.

And during this conversation, was Mr. Miller in

4

possession of a firearm?

5

A.

Yes.

6

Q.

Did he show it to you?

7

A.

Yes.

8

Q.

What kind of a firearm was it?

9

A.

A nine millimeter.

10

Q.

Could you describe it by its color?

11

A.

Black.

12

Q.

Was there anything that you remember like the

13

manufacturer, model, or anything else about the firearm?

14

A.

No.

15

Q.

And when Mr. Miller offered to trade, what was the

16

proposal that he made?

17

A.

Just to trade the gun.

18

Q.

To take his gun and just trade it with yours?

19

A.

Yes.

20

Q.

Did Mr. Miller make any statements as to why he

21

wanted to get rid of that particular gun?

22

A.

No.

23

Q.

Did you agree to the trade?

24

A.

No.

25

Q.

Was there any particular reason why not?

098

1036
1

A.

Didn't want it.

2

Q.

Was there at any point in time that you had another

3

conversation with Miller, Mr. Miller, about a gun

4

transaction?

5

A.

Yes.

6

Q.

When was that conversation in relationship to the

7

Ian Francis shooting?

8

A.

After.

9

Q.

How long after?

10

A.

A week or two.

11

Q.

Was Ian Francis -THE COURT:

12
13

A.

Yes.
MR. DONOVAN:

14

Did you say a week or two, sir?

Thank you, Your Honor.

15

Q.

Was Ian Francis still alive at that time?

16

A.

Yes.

17

Q.

So let's talk about this second conversation.

18

you have conversation, was this in person, in phone, by

19

text?

20

A.

In person.

21

Q.

Where?

22

A.

On Keronn grandmother's porch.
THE COURT:

23
24

porch?

25

A.

Did

Did you say on Keronn's grandmother's

Yes.

099

1037
MR. LEAMING:

1
2

microphone a little closer so it's easier for us to hear you.
THE COURT:

3
4
5

Mr. Farmer, if you can, just move that

Q.

You can also pull it down, sir.

So this is the same porch that the first

conversation took place, is that right?

6

A.

Yes.

7

Q.

And what does Miller -- well, is Mr. Miller in

8

possession of a firearm?

9

A.

No.

10

Q.

At some point does he have a discussion with you

11

about the firearm?

12

A.

Yes.

13

Q.

What does he say to you?

14

A.

He wanted to trade again.

15

Q.

And what did he want to trade?

16

A.

My gun for his gun and $200.

17

Q.

And what gun did he want to trade?

18

A.

The same nine millimeter.

19

Q.

And how did you know that?

20

A.

He said it was the same gun.

21

Q.

And what, if anything else, did he say about

22

trading the gun, the nine millimeter -- withdrawn.
Was the gun he wanted to trade the same gun he

23
24
25

wanted to trade with you before?
A.

Yes.

100

1038
1

Q.

So your .40 caliber?

2

A.

Yes.

3

Q.

And when Mr. Miller comes to you a second time,

4

what if anything does he say as to why he wants to trade that

5

gun?
MR. DONOVAN:

6
7

question.
THE COURT:

8
9

I think I'm objecting to this

I thought you had withdrawn your

objection.

10

MR. DONOVAN:

11

talking about the second time.
THE COURT:

12
13

This is the second time.

We're

This is the discussion we had a moment

ago?

14

MR. DONOVAN:

15

THE COURT:

16

MR. DONOVAN:

It is.
That's overruled.
Thank you, Your Honor.

17

Q.

You want me to repeat the question?

18

A.

Yes.

19

Q.

What, if anything, did Mr. Miller say as to why he

20

wanted to trade the gun, his gun for yours on the second

21

occasion?

22

A.

Because he didn't want it no more.

23

MR. DONOVAN:

24

THE COURT:

25

I'm sorry.
He said because he didn't want it no

more?

101

1039
A.

1

THE COURT:

2
3

Sir, you have to pull the microphone

closer or sit closer.
Q.

4
5

Yes.

Thank you.

Did Mr. Miller say why he was coming back -- was it

the same offer he offered before?

6

A.

No.

7

Q.

What was different about the offer?

8

MR. DONOVAN:

9

THE COURT:

Objection.
Overruled.

10

A.

$200.

11

Q.

What do you mean, $200?

12

MR. DONOVAN:

13

THE COURT:
Q.

14

16

Overruled.

What did Mr. Miller say about $200?
MR. DONOVAN:

15

Objection, asked and answered.

I object to that question.

Asked and

answered.
THE COURT:

17

it's overruled.

A.

That he wanted to trade his gun and $200 for my

20

Q.

Who is he?

21

A.

Keronn.

22

Q.

Yes or no, did Mr. Miller --

18
19

gun.

23

MR. DONOVAN:

24

THE COURT:

25

Q.

Objection.
Let's wait for the question.

Yes or no, did Mr. Miller mention anybody else in

102

1040
1

that conversation?

2

MR. DONOVAN:

3

THE COURT:

Objection, leading.
Overruled.

4

Q.

Who else did he mention?

5

A.

Little Sweets.

6

Q.

How did he mention Little Sweets?

7

A.

Said it was his gun.

8

MR. DONOVAN:

9

THE COURT:

10

Can we approach side-bar?
No, I think we've covered this, Attorney

Donovan.

11

MR. DONOVAN:

12

THE COURT:

13

(Whereupon, the following conference was held at

14
15

That's not what we expected.
All right.

One more time.

side-bar.)
MR. DONOVAN:

You based your ruling on the

16

prosecutor's representation that what he was going to say was

17

that Mack said he'd throw in an extra $200.

18

testified something different.

19

Mack's gun.

20

Now he's

That Keronn said that it was

This is not incriminatory as to Miller.

THE COURT:

You're right, there's a difference

21

between what the representation has been or the statement,

22

but why isn't it incriminatory as to Miller given what he's

23

already told us about how the shooting occurred and that Mack

24

was the trigger man and that he, Keronn, helped set up the

25

shooting if Keronn is helping Mack dispose of his -- Mack's

103

1041
1

gun, why doesn't that incriminate Miller?
MR. DONOVAN:

2

Because this is no different than

3

almost every one of these cases in which two people are

4

involved and one person tries to place additional blame on

5

the other.

6

not on Keronn.

7

could say that because he's saying it's Mack's gun,

8

therefore, someone could infer that, but the statement is --

The statement here places the blame on Mack and
It's only through inferences that, well, we

THE COURT:

9

I hear what you're saying, but it

10

doesn't do that any more than the statement I already ruled

11

on, namely, the statement -- I know you disagree with my

12

ruling -- but the statement that he drove him there and that

13

Mack pulled the trigger.

14

Mack's gun but, again, it does inculpate Miller and it

15

doesn't minimize any more than the statement that Mack pulled

16

the trigger which, as I described earlier, I don't view it as

17

minimization, I feel as describing his role.
MR. DONOVAN:

18
19

You're right that he's saying it's

It seems to me qualitatively different

and the analysis should be qualitatively different.

20

THE COURT:

21

(Side-bar concluded.)

22

THE COURT:

23

objection.

25

Q.

Ladies and gentlemen, I overruled the

Go ahead.

MR. DONOVAN:

24

You're preserved.

Thank you, Your Honor.

Mr. Farmer, was there an agreement between you and

104

1042
1

Mr. Miller to exchange the firearms with the additional

2

money?

3

A.

No.

4

Q.

Now, you told us you're here because -- you're

5

staying or currently staying for the last four months at New

6

Haven Correctional, is that right?

7

A.

Yes.

8

Q.

You're what you call pretrial status, is that

9

right?

10

A.

Yes.

11

Q.

Now, you have been previously convicted of a

12

felony, have you not?

13

A.

Yes.

14

Q.

How many times have you been convicted of a

15

felony?

16

A.

Four.

17

Q.

Four different cases or four different felony

18

offenses?

19

A.

Four different felony offenses.

20

Q.

Why don't you tell us what those are.

21

A.

Violation of protective order, burglary third,

22
23
24
25

burglary second, and theft of a firearm.
Q.

Did you also have another burglary second

conviction connected with one of those cases, if you know?
A.

I think so, yes.

105

18 U.S.C. § 1111
(a)Murder is the unlawful killing of a human being with malice aforethought.
Every murder perpetrated by poison, lying in wait, or any other kind of willful,
deliberate, malicious, and premeditated killing; or committed in the perpetration
of, or attempt to perpetrate, any arson, escape, murder, kidnapping, treason,
espionage, sabotage, aggravated sexual abuse or sexual abuse, child abuse,
burglary, or robbery; or perpetrated as part of a pattern or practice of assault or
torture against a child or children; or perpetrated from a premeditated design
unlawfully and maliciously to effect the death of any human being other than him
who is killed, is murder in the first degree.
Any other murder is murder in the second degree.
(b)Within the special maritime and territorial jurisdiction of the United States,
Whoever is guilty of murder in the first degree shall be punished by death or by
imprisonment for life;
Whoever is guilty of murder in the second degree, shall be imprisoned for any
term of years or for life.
18 U.S.C. § 1112
(a)Manslaughter is the unlawful killing of a human being without malice. It is of
two kinds:
Voluntary—Upon a sudden quarrel or heat of passion.
Involuntary—In the commission of an unlawful act not amounting to a
felony, or in the commission in an unlawful manner, or without due caution
and circumspection, of a lawful act which might produce death.
(b)Within the special maritime and territorial jurisdiction of the United States,
Whoever is guilty of voluntary manslaughter, shall be fined under this title or
imprisoned not more than 15 years, or both;
Whoever is guilty of involuntary manslaughter, shall be fined under this title or
imprisoned not more than 8 years, or both.
18 U.S.C. § 1512
(1)Whoever kills or attempts to kill another person, with intent to—
(A)prevent the attendance or testimony of any person in an official
proceeding;
(B)prevent the production of a record, document, or other object, in an
official proceeding; or

106

(C)prevent the communication by any person to a law enforcement officer
or judge of the United States of information relating to the commission or
possible commission of a Federal offense or a violation of conditions of
probation, parole, or release pending judicial proceedings;
shall be punished as provided in paragraph (3).
(2)Whoever uses physical force or the threat of physical force against any person,
or attempts to do so, with intent to—
(A)influence, delay, or prevent the testimony of any person in an official
proceeding;
(B)cause or induce any person to—
(i)withhold testimony, or withhold a record, document, or other
object, from an official proceeding;
(ii)alter, destroy, mutilate, or conceal an object with intent to impair
the integrity or availability of the object for use in an official
proceeding;
(iii)evade legal process summoning that person to appear as a
witness, or to produce a record, document, or other object, in an
official proceeding; or
(iv)be absent from an official proceeding to which that person has
been summoned by legal process; or
(C)hinder, delay, or prevent the communication to a law enforcement officer
or judge of the United States of information relating to the commission or
possible commission of a Federal offense or a violation of conditions of
probation, supervised release, parole, or release pending judicial
proceedings;
shall be punished as provided in paragraph (3).
(3)The punishment for an offense under this subsection is—
(A)in the case of a killing, the punishment provided in sections 1111 and
1112;
(B)in the case of—
(i)an attempt to murder; or
(ii)the use or attempted use of physical force against any person;
imprisonment for not more than 30 years; and
(C)in the case of the threat of use of physical force against any person,
imprisonment for not more than 20 years.
(b)Whoever knowingly uses intimidation, threatens, or corruptly persuades

107

another person, or attempts to do so, or engages in misleading conduct toward
another person, with intent to—
(1)influence, delay, or prevent the testimony of any person in an official
proceeding;
(2)cause or induce any person to—
(A)withhold testimony, or withhold a record, document, or other object,
from an official proceeding;
(B)alter, destroy, mutilate, or conceal an object with intent to impair the
object’s integrity or availability for use in an official proceeding;
(C)evade legal process summoning that person to appear as a witness, or to
produce a record, document, or other object, in an official proceeding; or
(D)be absent from an official proceeding to which such person has been
summoned by legal process; or
(3)hinder, delay, or prevent the communication to a law enforcement officer
or judge of the United States of information relating to the commission or
possible commission of a Federal offense or a violation of conditions of
probation?[1] supervised release,,[1] parole, or release pending judicial
proceedings;
shall be fined under this title or imprisoned not more than 20 years, or both.
(c)Whoever corruptly—
(1)alters, destroys, mutilates, or conceals a record, document, or other
object, or attempts to do so, with the intent to impair the object’s integrity or
availability for use in an official proceeding; or
(2)otherwise obstructs, influences, or impedes any official proceeding, or
attempts to do so,
shall be fined under this title or imprisoned not more than 20 years, or both.

(d)Whoever intentionally harasses another person and thereby hinders, delays,
prevents, or dissuades any person from—
(1)attending or testifying in an official proceeding;
(2)reporting to a law enforcement officer or judge of the United States the
commission or possible commission of a Federal offense or a violation of
conditions of probation?1 supervised release,,1 parole, or release pending
judicial proceedings;
(3)arresting or seeking the arrest of another person in connection with a
Federal offense; or
(4)causing a criminal prosecution, or a parole or probation revocation

108

proceeding, to be sought or instituted, or assisting in such prosecution or
proceeding;
or attempts to do so, shall be fined under this title or imprisoned not more
than 3 years, or both.

(e)In a prosecution for an offense under this section, it is an affirmative defense, as
to which the defendant has the burden of proof by a preponderance of the
evidence, that the conduct consisted solely of lawful conduct and that the
defendant’s sole intention was to encourage, induce, or cause the other person to
testify truthfully.
(f)For the purposes of this section—
(1)an official proceeding need not be pending or about to be instituted at the
time of the offense; and
(2)the testimony, or the record, document, or other object need not be
admissible in evidence or free of a claim of privilege.
(g)In a prosecution for an offense under this section, no state of mind need be
proved with respect to the circumstance—
(1)that the official proceeding before a judge, court, magistrate judge, grand
jury, or government agency is before a judge or court of the United States, a
United States magistrate judge, a bankruptcy judge, a Federal grand jury, or
a Federal Government agency; or
(2)that the judge is a judge of the United States or that the law enforcement
officer is an officer or employee of the Federal Government or a person
authorized to act for or on behalf of the Federal Government or serving the
Federal Government as an adviser or consultant.
(h)There is extraterritorial Federal jurisdiction over an offense under this section.
(i)A prosecution under this section or section 1503 may be brought in the district
in which the official proceeding (whether or not pending or about to be instituted)
was intended to be affected or in the district in which the conduct constituting the
alleged offense occurred.
(j)If the offense under this section occurs in connection with a trial of a criminal
case, the maximum term of imprisonment which may be imposed for the offense
shall be the higher of that otherwise provided by law or the maximum term that

109

could have been imposed for any offense charged in such case.
(k)Whoever conspires to commit any offense under this section shall be subject to
the same penalties as those prescribed for the offense the commission of which
was the object of the conspiracy.

110

USCA4 Appeal: 18-4578

Doc: 65-1

Filed: 07/08/2020

Pg: 1 of 7

NO. 18-4578
___________________________________________________________ ______
IN THE UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT
____________________
UNITED STATES OF AMERICA,
Plaintiff-Appellee,
versus
MICHAEL ANDREW GARY,
Defendant-Appellant.
__________________________________________________________________
UNITED STATES’ MOTION FOR STAY OF THE MANDATE

Appellee United States of America moves this Honorable Court, under
Federal Rule of Appellate Procedure 41(d) and Local Rule 41, for a stay of the
issuance of the mandate in this case until the deadline for filing of a petition for a
writ of certiorari or, if a certiorari petition is filed, until the petition is finally
resolved. This Court denied the Government’s petition for rehearing en banc on July
7, 2020. ECF No. 64. The Court’s mandate is therefore scheduled to issue on July
14, 2020. Fed. R. App. Proc. 41(b). This case would present substantial questions
for resolution by the Supreme Court if the Acting Solicitor General were to authorize
a petition for a writ of certiorari, and this motion is supported by good cause and is
not frivolous or filed to delay the proceedings.

111

USCA4 Appeal: 18-4578

I.

Doc: 65-1

Filed: 07/08/2020

Pg: 2 of 7

A certiorari petition would present two substantial questions to the
Supreme Court.
A motion to stay the mandate pending the possible filing of a petition for

certiorari should be granted if “the petition would present a substantial question” and
“there is good cause for a stay.” Fed. R. App. Proc. 41(d)(1). Such a motion
ordinarily “shall be denied unless there is a specific showing that it is not frivolous
or filed merely for delay.” Local Rule 41.
“[A]n appeal raises a substantial question when [it] presents a close question
or one that could go either way.” United States v. Pollard, 778 F.2d 1177, 1182 (6th
Cir. 1985) (internal quotation marks omitted). In determining whether a petition
would present a “substantial question” for the Supreme Court, courts consider
whether there exists a reasonable probability that certiorari will be granted and a
reasonable possibility the Supreme Court will reverse the lower court’s decision.
See U.S. Postal Serv. v. Nat’l Ass’n of Letter Carriers, AFL-CIO, 481 U.S. 1301,
1302 (1987) (Rehnquist, C.J., in chambers); United States v. Silver, 954 F.3d 455,
458 (2d Cir. 2020). The Supreme Court will grant a petition for a writ of certiorari
only for “compelling reasons,” such as when a court of appeals’ decision conflicts
with the decision of another court of appeals on the same important matter, or when
a court of appeals’ decision on an important question of federal law conflicts with
relevant decisions of the Supreme Court. U.S. Sup. Ct. Rule 10(a), (c).
2

112

USCA4 Appeal: 18-4578

Doc: 65-1

Filed: 07/08/2020

Pg: 3 of 7

Two holdings in this Court’s opinion would present substantial questions for
resolution by the Supreme Court if the Acting Solicitor General were to authorize a
petition for a writ of certiorari in this case.
First, the opinion held a Rehaif1 error in a plea colloquy is a structural error
that necessarily affects a defendant’s substantial rights. This decision is inconsistent
with longstanding Supreme Court precedent restricting structural errors to a “very
limited class of cases,” Johnson v. United States, 520 U.S. 461, 468 (1997), and it
conflicts with the decisions of eight other circuits that have reviewed Rehaif errors
for prejudice.
Although this Court determined many of the other circuits’ decisions are
distinguishable from Gary’s case because they “did not consider whether the district
court’s acceptance of a guilty plea without informing the defendant of every element
of the offense was a constitutional error that rendered his guilty plea invalid,” 954
F.3d 194, 201 (4th Cir. 2020), at least three circuits have since rejected this Court’s
holding in published opinions. See United States v. Hicks, 958 F.3d 399, 401-02
(5th Cir. 2020) (acknowledging this Court’s holding in Gary then holding that “when
a defendant claims that a Rehaif error rendered his guilty plea unknowing and

1

Rehaif v. United States, 139 S. Ct. 2191 (2019).
3

113

USCA4 Appeal: 18-4578

Doc: 65-1

Filed: 07/08/2020

Pg: 4 of 7

involuntary, the defendant satisfies plain error review only if he shows that there is
a reasonable probability that he would not have pled guilty had he known of
Rehaif”); United States v. Coleman, 916 F.3d 1024, 1029-30 & n.3 (8th Cir. 2020)
(noting this Court held in Gary that a constitutionally invalid plea is a structural error
and holding instead that “even in the context of a constitutionally invalid plea based
on Rehaif, a defendant satisfies plain-error review only by showing that the error
affected his or her substantial rights”); United States v. Trujillo, 960 F.3d 1196, 1205
(10th Cir. 2020) (recognizing that its decision not to “expand the limited number of
structural errors to include those in which a district court fails to inform a defendant
of the knowledge-of-status element of a felon in possession charge under 18 U.S.C.
§ 922(g)(1)” conflicts with this Court’s decision in Gary).
Second, this Court determined the district court’s acceptance of Gary’s guilty
plea so seriously affected the fairness, integrity, or public reputation of judicial
proceedings as to demand vacatur without employing the case-specific, factintensive inquiry the Supreme Court and this Court require. See Rosales-Mireles v.
United States, 138 S.Ct. 1897, 1909 (2018) (“any exercise of discretion at the fourth
prong of Olano inherently requires ‘a case-specific and fact-intensive’ inquiry”
(citation omitted)); United States v. David, 83 F.3d 638, 647–48 (4th Cir. 1996)
(refusing “to adopt a per se rule that every error as to which harmless error analysis

4

114

USCA4 Appeal: 18-4578

Doc: 65-1

Filed: 07/08/2020

Pg: 5 of 7

need not be conducted must be noticed as plain error” and observing that the
Supreme Court has rejected as “flawed” a per se approach to plain error review); see
also United States v. Johnson, --- F.3d ----, 2020 WL 3458969, at *5 & n.1 (9th Cir.
June 25, 2020) (agreeing with sister circuits that uncontroverted evidence defendant
was sentenced to more than one year in prison “will ordinarily preclude a defendant
from satisfying the fourth prong of plain-error review when challenging the
sufficiency of the evidence that he knew of his status as a convicted felon” and
distinguishing Gary).
This Court’s opinion has created two rapidly broadening circuit splits and “an
equally profound schism with the Supreme Court’s whole approach to error review
and remediation.” United States v. Gary, --- F.3d ----, 2020 WL 3767152, at *1 (4th
Cir. July 7, 2020) (Wilkinson, J., concurring in denial of petition for rehearing en
banc). Because a petition for a writ of certiorari, if authorized, would set forth two
substantial questions for the Supreme Court, the Government respectfully requests
this Court grant its motion to stay the mandate.
II.

There is good cause to stay the mandate pending the filing of any petition
for a writ of certiorari.
The Government can demonstrate good cause to stay the mandate. Courts

consider the balance of the equities in evaluating whether there exists “good cause”
to issue a stay. Postal Serv., 481 U.S. at 1302. As set forth in the concurrence to
5

115

USCA4 Appeal: 18-4578

Doc: 65-1

Filed: 07/08/2020

Pg: 6 of 7

the denial of the Government’s petition for rehearing en banc, this Court’s opinion
“is far-reaching in its implications” and has the potential to “strain the resources of
the lower federal courts in no small measure.” Gary, 2020 WL 3767152, at *1, 4
(Wilkinson, J., concurring). Taking into consideration the “sheer volume of guilty
pleas” and “the fact that § 922(g) is at or near the top of our most frequently charged
criminal offenses,” id. at *4, this Court’s holding that omission of the Rehaif
knowledge-of-status element during a plea colloquy is a structural error that
necessarily affects substantial rights has the potential to impact a significant number
of cases currently pending on direct appeal.
Moreover, no equities weigh against staying the mandate. Gary will not be
released from prison if the mandate issues. Instead, his case will be remanded to the
district court, where he will remain in custody while determining whether to plead
guilty again or proceed to trial. See United States v. Gary, No. 3:17-cr-00809-JFA
(D.S.C.), ECF No. 15 (order detaining Gary pending trial issued Sept. 19, 2017).
Requiring the district court to initiate new proceedings that may ultimately be
mooted by a Supreme Court reversal during a national public health emergency that
has posed significant hurdles to the court’s ability to obtain an adequate spectrum of
jurors and safely conduct criminal jury trials and grand jury proceedings would
impose a substantial—and at this point premature—burden on the lower court. See

6

116

USCA4 Appeal: 18-4578

Doc: 65-1

Filed: 07/08/2020

Pg: 7 of 7

Second Amended Standing Order, No. 3:20-mc-00264-RBH (D.S.C. June 26, 2020).
A balance of the equities demonstrates that good cause exists to stay the mandate.
III.

Conclusion.
The filing of a petition for a writ of certiorari, if authorized by the Acting

Solicitor General, would present two substantial questions to the Supreme Court.
Moreover, the Government can show good cause for a stay and does not present this
request for frivolous purposes or merely to delay proceedings. The Government
therefore requests this Court stay the issuance of the mandate in this case until the
deadline for filing of a certiorari petition or, if a certiorari petition is filed, until the
petition is finally resolved.
The undersigned has contacted counsel for Appellant, who does not consent
to this motion.
Respectfully submitted,
PETER M. McCOY, JR.
UNITED STATES ATTORNEY
By: /s/Kathleen Michelle Stoughton
Kathleen Michelle Stoughton
Assistant United States Attorney
1441 Main Street, Suite 500
Columbia, SC 29201
Tel. (803) 929-3114
Fax (803) 929-3135
Email: Kathleen.Stoughton@usdoj.gov
July 8, 2020
7

117

